U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 28, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Birt v. United States, No. 20-291
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 1,
2020, and placed on the Court’s docket on September 4, 2020. The response of the United States
is now due, after one extension, on November 4, 2020. We respectfully request, under Rule 30.4
of the Rules of this Court, a further extension of time to and including November 18, 2020,
within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of
previously assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-0291
BIRT, JAMELL
USA

DAVID D. COLE
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
915 15TH STREET, NW
WASHINGTON, DC 20005
212-549-2611
DCOLE@ACLU.ORG
ZACHARY CHARLES SCHAUF
JENNER & BLOCK, LLP
1099 NEW YORK AVE., NW
WASHINGTON, DC 20001
202-637-6379
ZSCHAUF@JENNER.COM
DAVID J. ZIMMER
GOODWIN PROCTER LLP
100 NORTHERN AVE.
BOSTON, MA 02210
617-570-1000
DZIMMER@GOODWINLAW.COM

